      Department of Homeland Security




   U.S. Immigration and Customs Enforcement’s
  Management Letter for FY 2011 DHS Consolidated
             Financial Statements Audit




OIG-12-51                                     March 2012

                                                              Office o!lllspcctor General

                                                              U.S. Department of Homeland S«urity
                                                              Washington, DC 20528




                                                              Homeland
                                                              Security
                                            MAR 14 1011

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Secllrity Act 0/2002 (Public Law 107-296) by amendment
to the fnspector General Act of 1978. This is one ofa series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department,

This report presents the U,S. Immigration and Customs Enforcement's Management
Letter for FY 2011 DHS Consolidated Financial Statements Audit. It contains
observations related to internal controls that were not required to be reported in the
financial statements audit report. The independent public accounting finn KPMG LLP
(KPMG) perfonned the integrated audit ofDHS' FY 2011 financial statements and
internal control over financial reporting and prepared this management letter. KPMG is
responsible for the attached management letter dated February 3, 2012 and the
conclusions expressed in it. We do not express opinions on DHS' financial statements or
internal control or provide conclusions on compliance with laws and regulations.

The observations herein have been discussed in draft with management officials. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                              Anne L. Richards
                                              Assistant Inspector General for Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006
February 3, 2012


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security U.S. Immigration and Customs Enforcement
Washington, DC


Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then ended,
based on the criteria established in Office of Management and Budget, Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011. We have not considered internal control since the
date of our Independent Auditors’ Report.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report, referred to in the paragraph above, included internal
control deficiencies identified during our audit, that individually, or in aggregate, represented a
material weakness or a significant deficiency.
The U.S. Immigration and Customs Enforcement (ICE) is a component of DHS. We noted certain
matters, related to ICE that are summarized in the Table of Financial Management Comments on
the following pages, involving internal control and other operational matters that are less severe
than a material weakness or a significant deficiency, and consequently are reported separately to
the Office of Inspector General (OIG) and ICE management in this letter. These comments and
recommendations, all of which have been discussed with the appropriate members of management,
are intended to improve internal control or result in other operating efficiencies. The disposition of
each internal control deficiency identified during our FY 2011 audit – as either reported in our
Independent Auditors’ Report, or herein – is presented in Appendix A. The

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
status of internal control deficiencies identified during our FY 2010 audit is presented in Appendix
B. Our findings related to information technology systems security have been presented in a
separate letter to the OIG and the ICE Chief Financial Officer and Chief Information Officer.
We would be pleased to discuss these comments and recommendations with you at any time. This
report is intended for the information and use of DHS’ and ICE’s management, the DHS Office of
Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and the
Government Accountability Office, and is not intended to be and should not be used by anyone
other than these specified parties.



Very truly yours,
                              U.S. Immigration and Customs Enforcement
                              Table of Financial Management Comments
                                         September 30, 2011

               TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Comment
Reference   Subject                                                                               Page(s)

FMC 11-01   Failure to Record Payroll Accrual                                                       2
FMC 11-02   General Journal Entry Not Approved by Office of Financial Management Director           2
FMC 11-03   Inadequate Internal Controls over Tracking and Removing Accumulated Depreciation        2
            in Sunflower Asset Management System
FMC 11-04   Process for Identifying Contract-type Obligations for Contract Close-out is Delayed    2-3
FMC 11-05   Inadequate Internal Controls over Tracking Leasehold Improvement Projects               3
FMC 11-06   Untimely Recording of Capitalized Asset Disposals                                       3
FMC 11-07   Reimbursable Agreements Not Timely Approved by Budget Officer                           4
FMC 11-08   Contracting Officer has Access to Approve Invoices in Federal Financial Management      4
            System (FFMS)
FMC 11-09   Incorrect Federal Employees Group Life Insurance Deduction                             4-5
FMC 11-10   Untimely Review of Office of Government Ethics 278 Forms                                5
FMC 11-11   Insufficient Documentation for Federal Employees’ Compensation Act Claims               5
FMC 11-12   Inadequate Controls over New Hire Ethics Briefings                                      6
FMC 11-13   Subject to Availability of Funding Agreements not Obligated in FFMS at Outset of        6
            Agreement
FMC 11-14   Ineffective Internal Controls over Leave Audit Process                                 6-7
FMC 11-15   ICE Does Not Accrue Capitalized Costs Incurred at Year-end for Software and             7
            Leasehold Improvement Projects
FMC 11-16   Inadequate Internal Controls over Tracking of Internal Use Software Projects            7




                                              APPENDIX

Appendix    Subject                                                                               Page(s)

    A       Crosswalk – Financial Management Comments to Active Notices of Finding and             8-9
            Recommendation (NFRs)
    B       Status of Prior Year NFRs                                                               10




                                                     1

                              U.S. Immigration and Customs Enforcement
                                   Financial Management Comments
                                         September 30, 2011


FMC 11-01 – Failure to Record Payroll Accrual (NFR No. ICE 11-02)

       We noted that U.S. Immigration and Customs Enforcement (ICE) did not adhere to its policy to
       accrue for payroll expenses that it had incurred at the end of the first and second quarters in fiscal
       year (FY) 2011.

       Recommendation:
       We recommend that ICE adhere to its policy and record an accrual for payroll expenses at the end
       of each quarter.

FMC 11-02 – General Journal Entry Not Approved by Office of Financial Management Director
(NFR No. ICE 11-03)

       Per ICE policy, the ICE Office of Financial Management (OFM) Director is required to review
       and approve general journal (GJ) entries with debits and credits in excess of $300 million and
       sign the GJ cover sheet as evidence of his review. However, during testwork over GJs, we noted
       that ICE OFM processed one GJ transaction with debits and credits in excess of $300 million that
       was not approved by the Director of OFM.

       Recommendation:
       We recommend that ICE provide additional training to employees to ensure complete
       understanding of the requirements of the GJ Procedures Standard Operating Procedures.

FMC 11-03 – Inadequate Internal Controls over Tracking and Removing Accumulated
Depreciation in Sunflower Asset Management System (NFR No. ICE 11-04)

       We selected a sample of five personal property items with abnormal balances as of June 30, 2011
       and noted that the assets had negative net book values due to either (1) depreciation in Sunflower
       Asset Management System (SAMS) in excess of the asset’s value or (2) failure to write-off
       accumulated depreciation in SAMS upon disposal of the asset.

       Recommendation:
       We recommend that the ICE OFM and Office of Asset Administration (OAA) create and utilize
       existing detective tools to identify data anomalies within SAMS to specifically address
       depreciation anomalies.

FMC 11-04 – Process for Identifying Contract-type Obligations for Contract Closeout is Delayed
(NFR No. ICE 11-05)

       We selected a sample of eight undelivered orders (UDOs) from a population of UDOs that had no
       disbursement activity from June 30, 2010 to June 30, 2011 and noted that three of the eight aged
       UDOs were valid, but not active as of June 30, 2011. These UDOs needed to be reviewed by
       Program Offices before the contract close-out process for deobligation may begin; however,
       Office of Acquisitions (OAQ) indicated that the Program Offices would not complete this review
       until FY 2012.




                                                     2

                              U.S. Immigration and Customs Enforcement
                                   Financial Management Comments
                                         September 30, 2011




       Recommendations:
      We recommend that ICE OFM with support from OAQ, Office of Facilities Administration
      (OFA), and ICE program offices:
          Continue to emphasize timely review of open obligations, consistent with its current business
          processes, on a priority basis based on amounts/materiality and available resources.
          Continue to emphasize timely monitoring and enforce existing policies and procedures for
          review and closeout of UDO balances with expired periods of performance.

FMC 11-05 – Inadequate Internal Controls over Tracking Leasehold Improvement Projects
(NFR No. ICE 11-06)

       In the beginning of FY 2010, ICE OFM conducted a review of software and leasehold
       improvements and detected errors in the balances and subsequently recorded adjustments to the
       leasehold improvements (LHIs) in process and software in-development balances as a result of
       these errors. In FY 2011, as management continued to improve its process and controls, ICE
       recorded additional adjustments to the LHI in process balances for costs that were incurred in
       prior fiscal years.

       Recommendations:
       We recommend that ICE OFM and OFA:
          Utilize existing controls as well as establish additional controls to ensure capital projects are
          identified at the time of obligation.
          Perform recurring data reviews and tests to ensure established controls are operating
          effectively.

FMC 11-06 – Untimely Recording of Capitalized Asset Disposals (NFR No. ICE 11-07)

       During testwork over capitalized asset disposals as of June 30, 2011, we noted that one of the five
       capitalized vehicle disposals selected for testwork was disposed of in FY 2010, but was not
       recorded as a disposal in SAMS or Federal Financial Management System (FFMS) until FY
       2011.

       Recommendations:
       We recommend that ICE OAA, OFM, and DHS Project Management Office for SAMS:
          Meet to implement policies and procedures to ensure that disposals are removed from the
          general ledger in a timely manner.
          Evaluate the discrepancy and formulate an action plan to eliminate the inconsistency between
          actual disposal and when the disposal is recorded.




                                                     3
                             U.S. Immigration and Customs Enforcement
                                  Financial Management Comments
                                        September 30, 2011


FMC 11-07 – Reimbursable Agreements Not Timely Approved by Budget Officer (NFR No. ICE
11-08)

       During testwork over reimbursable agreements as of June 30, 2011, we noted that three
       reimbursable agreements had not been timely approved by a Budget Officer.

       Recommendations:
       We recommend that ICE:
          Follow the procedures outlined in the ICE Budget Execution Handbook, which includes
          guidance stating that Office of Budget and Program Performance (OBPP) will sign all
          reimbursable agreements that are accompanied by a complete package within five business
          days of receipt.
          Plan to submit reimbursable agreement packages to OBPP 30 calendar days prior to the start
          of the agreement’s period of performance to ensure timely completion and signature prior to
          expenses being incurred.

FMC 11-08 – Contracting Officer has Access to Approve Invoices in Federal Financial
Management System (FFMS) (NFR No. ICE 11-10)

       We reviewed a listing of contracting officers (COs) and their access rights within FFMS in order
       to determine whether appropriate segregation of duties was enforced between those COs who
       were able to enter into agreements and those COs who process payments and noted that 1 out of
       71 COs had inappropriate access rights within FFMS. The contracting officer had authority to
       approve agreements and to input receiving tickets in the PM030 screen within FFMS. The
       contract approval and payment processes should be separate.

       Recommendations:
       We noted that ICE OAQ implemented “read or view-only” FFMS access for employees with CO
       responsibilities.

       We recommend that ICE:
          OAQ Mission Support Team (MST) continue to monitor and approve FFMS access.
          Ensure all warranted COs request access to FFMS through the OAQ MST.
          Continue to follow the semi-annual validation process in which the listing of warranted COs
          is sent to the FFMS Help Desk for access validation.

FMC 11-09 – Incorrect Federal Employees’ Group Life Insurance Deduction (NFR No. ICE 11-11)

       During testwork over compliance with laws and regulations, we noted that ICE did not accurately
       deduct an employee’s Federal Employees’ Group Life Insurance (FEGLI) deduction for one
       sample item out of thirty-two. We noted that the employee elected FEGLI coverage of “Basic –
       5X additional.” At the time of the election, the employee worked at Federal Emergency
       Management Agency and the election was coded as “Basic – 1X.” When the employee
       transferred to ICE, ICE Human Resources personnel did not correct the deduction amount despite
       having the information on which to make the change.




                                                   4
                            U.S. Immigration and Customs Enforcement
                                 Financial Management Comments
                                       September 30, 2011


       Recommendation:
       We recommend that ICE Office of Human Capital (OHC) implement procedures to review and
       confirm benefits information for employees who transfer into the agency.

FMC 11-10 – Untimely Review of Office of Government Ethics 278 Forms (NFR No. ICE 11-12)

       We selected a sample of 15 SF-278 financial disclosure forms filed by ICE employees and noted
       that seven items had not been certified within 60 days of receipt as required by CFR 5 §
       2634.605. We noted that all SF-278s were ultimately certified, but outside the 60 day window.

       Recommendation:
       We recommend that ICE continue to work with filers, supervisors, the DHS Ethics Office, and
       the DHS Financial Disclosure Management (FDM) system contractor to achieve improved
       implementation of the FDM system. Due to technical issues, we noted that one supervisor of
       twenty filers was not added to FDM until mid-August, delaying supervisory review and
       certification.

FMC 11-11 – Insufficient Documentation for Federal Employees’ Compensation Act Claims (NFR
No. ICE 11-13)

       We noted that ICE OHC does not have formal policies and procedures in place to document the
       Federal Employees’ Compensation Act (FECA) process. In FY 2011, ICE OHC personnel
       operated under a draft directive.

       When performing testwork over 45 FECA claims, we noted the following:
             For three claims, the Federal Employee’s Notice of Traumatic Injury and Claim for
             Continuation of Pay/Compensation (CA-1) forms were not available for review.
             For five claims, the employee did not completely fill out the CA-1 form and left fields
             blank.
             For 12 claims, the claimant’s pay grade and step per the CA-1 form did not agree to the
             leave and earnings statement (LES).
             For 11 claims, the claimants are no longer ICE employees and as a result we were unable
             to review LES’s for the purpose of our audit.
             For two claims, the employee did not include their grade/step information on the CA-1
             form.
             For one claim, the Social Security number (SSN) per the CA-1 form did not match the
             LES and the employee did not include their grade/step information on the CA-1 form.
             For one claim, the employee did not authorize their CA-1 form with their signature.
             For one claim, there was no SSN on the CA-1 form and the employee’s grade/step per the
             CA-1 form did not agree to the LES.

       Recommendation:
       We recommend that ICE OHC fully implement the draft directive related to FECA and conduct a
       periodic review of FECA claims in order to assess the accuracy of the claim information and to
       confirm ICE’s ownership of the claim.




                                                 5
                             U.S. Immigration and Customs Enforcement
                                  Financial Management Comments
                                        September 30, 2011


FMC 11-12 – Inadequate Controls over New Hire Ethics Briefings (NFR No. ICE 11-15)

       During testwork over a sample of 15 new hires from October 1, 2010 through June 30, 2011, we
       noted that one individual was recorded as not having completed the required new hire ethics
       briefing. At the time of interim testwork, the individual was within 90 days of his hire date and
       we noted no exception. However, at year-end, we performed follow-up procedures and the ICE
       Ethics Office confirmed that the individual did not complete the required training until October 5,
       2011, over 90 days from his initial hire date.

       Recommendation:
       We recommend that ICE continue to follow existing policies and procedures related to ethics
       briefings for newly hired employees.

FMC 11-13 – Subject to Availability of Funding Agreements not Obligated in FFMS at Outset of
Agreement (NFR No. ICE 11-16)

       We noted that Enforcement and Removal Operations (ERO) did not record a dollar value for
       obligations in FFMS under Subject to Availability Funding (SAF) agreements prior to incurring
       costs under the agreements. ERO occasionally incurs prompt payment interest because of the
       timing lag between when it receives an invoice and when it has funds available in FFMS to pay
       the invoice.

       We noted that due to the prior year NFR, ICE OAQ, Office of the Chief Financial Officer
       (OCFO), and ERO have implemented guidelines to reduce the number of SAF clauses; however,
       these offices continue to draft new policies and procedures to address SAF clauses and do not
       expect full corrective action to be complete until September 30, 2012.

       Recommendations:
       We recommend that ICE:
              ERO stagger the period of performance for contracts to more closely align funding needs
              with apportionments.
              Implement strengthened monitoring by OCFO in order to prioritize funding for mission
              critical contracts.
              Develop and implement procedures for identifying and rejecting invoices for services
              that are not duly authorized.

FMC 11-14 – Ineffective Internal Controls over Leave Audit Process (NFR No. ICE 11-17)

       During the walkthrough for the leave audit process, we noted that there was a 40% decrease in the
       number of leave errors in the past year. However, approximately 1,000 leave errors still existed
       as of May 7, 2011. We noted that differences in the leave balances between the National Finance
       Center records and WebTA reports were not being researched and resolved timely.




                                                   6
                             U.S. Immigration and Customs Enforcement
                                  Financial Management Comments
                                        September 30, 2011


       Recommendation:
       We recommend that ICE OHC:
          Ensure that all employees responsible for timekeeping are appropriately trained in all aspects
          of the time and attendance system.
          Analyze error reports to identify any common causes related to errors in the timekeeping
          process.
          Review and report to the Program Office on timekeeping errors to ensure correction no later
          than two pay periods from the date of official notification.
          Implement Timekeeping and Attendance Directive that establishes responsibilities for all
          employees involved in the timekeeping process and sets internal controls for leave errors.

FMC 11-15 – ICE Does Not Accrue Capitalized Costs Incurred at Year-end for Software and
Leasehold Improvement Projects (NFR No. ICE 11-18)

       We noted the following irregularities and misstatements in property plant & equipment (PP&E)
       related to the failure to completely and accurately accrue for capitalized costs:
            ICE OFM recorded accruals for leasehold improvements (LHIs) and LHIs in process for
            Management Directive in the fourth quarter of FY 2011, but then mistakenly reversed the
            accrual.
            ICE OFM accrued for its own leasehold improvement costs at September 30, 2011, but not its
            internal use software (IUS) projects.
            ICE OFM does not have policies and procedures in place to accrue for capitalized costs at
            year-end for its customer agencies.

       Recommendations:
       We recommend that ICE OFM:
          Continue to work closely with customers within ICE and at serviced components to clarify
          data needs and definitions and to adhere to data call deadlines.
          Develop more comprehensive policies and procedures surrounding the accrual of capitalized
          PP&E costs to ensure consistency and minimize the chance for errors.

FMC 11-16 – Inadequate Internal Controls over Tracking of Internal Use Software Projects (NFR
No. ICE 11-19)

       We noted that ICE failed to record capitalizable costs for IUS development as they were incurred
       in FY 2011. During year-end testwork, we identified $724,086 of expenses to services performed
       for the Sharepoint project in the second quarter and $739,436 of expenses related to services
       performed in the third quarter being added to IUS as a fourth quarter addition.

       Recommendation:
       We recommend that ICE develop and implement comprehensive policies and procedures to
       assist in the appropriate tracking and recording of IUS projects. These policies and procedures
       will ensure that all pertinent ICE offices work collaboratively to resolve the control areas
       identified.




                                                   7
                                                                                                 Appendix A
                         U.S. Immigration and Customs Enforcement
                  Crosswalk - Financial Management Comments to Active NFRs
                                      September 30, 2011


                                                                                Disposition1
                                                                                IAR                FMC
NFR No.                              Description                           MW   SD        NC        No.
          The Federal Financial Management System (FFMS) has the
 11-01                                                                     B
          Ability to Make Duplicate Payments
 11-02    Failure to Record Payroll Accrual                                                        11-01
          General Journal Entry Not Approved by Office of Financial
 11-03                                                                                             11-02
          Management Director
          Inadequate Internal Controls over Tracking and Removing
 11-04    Accumulated Depreciation in Sunflower Asset Management                                   11-03
          System
          Process for Identifying Contract-type Obligations for Contract
 11-05                                                                                             11-04
          Close-out is Delayed
          Inadequate Internal Controls over Tracking Leasehold
 11-06                                                                                             11-05
          Improvement Projects
 11-07    Untimely Recording of Capitalized Asset Disposals                                        11-06
          Reimbursable Agreements Not Timely Approved by Budget
 11-08                                                                                             11-07
          Officer
 11-09    Number Not Used                                                       Not applicable
 11-10    Contracting Officer has Access to Approve Invoices in FFMS                               11-08
 11-11    Incorrect Federal Employees’ Group Life Insurance Deduction                              11-09
 11-12    Untimely Review of Office of Government Ethics 278 Forms                                 11-10
          Insufficient Documentation for Federal Employees’ Compensation
 11-13                                                                                             11-11
          Act Claims
          Federal Financial Management Improvement Act of 1996
 11-14                                                                                     K
          Compliance
 11-15    Inadequate Controls over New Hire Ethics Briefings                                       11-12
          Subject to Availability of Funding Agreements not Obligated in
 11-16                                                                                             11-13
          FFMS at Outset of Agreement
 11-17    Ineffective Internal Controls over Leave Audit Process                                   11-14
          ICE Does Not Accrue Capitalized Costs Incurred at Year-end for
 11-18                                                                                             11-15
          Software and Leasehold Improvement Projects
          Inadequate Internal Controls over Tracking of Internal Use
 11-19                                                                                             11-16
          Software (IUS) Projects




                                                       8

                                                                                                               Appendix A
                                U.S. Immigration and Customs Enforcement
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2011


1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated November 11, 2011
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws,regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Fund Balance with Treasury
H         Grants Management
I         Custodial Revenue and Drawback
J         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
K         Federal Financial Management Improvement Act of 1996 (FFMIA)
L         Single Audit Act Amendments of 1996
M         Chief Financial Officers Act of 1990 (CFO Act)
N         Antideficiency Act, as amended (ADA)
O         Government Performance and Results Act of 1993 (GPRA)




                                                              9

                                                                                                                   Appendix B
                                     U.S. Immigration and Customs Enforcement
                                             Status of Prior Year NFRs
                                                September 30, 2011

                                                                                                      Disposition1
    NFR                                                                                                       Repeat
                                             Description                                      Closed2
     No.                                                                                                 (2011 NFR No.)
    10-01   Inadequate Internal Controls over Tracking Leasehold Improvement Projects                       ICE-11-06
    10-02   Inadequate Internal Controls over Tracking IUS Projects                                          ICE-11-19
    10-03   Ineffective Internal Controls over Leave Audit Process                                           ICE-11-17
            Ineffective Review Controls over the Preparation and Submission of the
    10-04                                                                                        X
            Contingent Legal Liabilities Documentation
    10-05   Ineffective Internal Controls over SF-224 Process                                    X
    10-06   Immigration Bonds were not Deposited in a Timely Manner                              X
    10-07   Untimely De-Obligation of Undelivered Orders (UDOs) Balances                                     ICE-11-05
            Subject to Availability of Funding Agreements not Obligated in FFMS at
    10-08                                                                                                    ICE-11-16
            Outset of Agreement
            ICE Does Not Accrue Capitalized Costs Incurred at Year-End for Software and
    10-09                                                                                                    ICE-11-18
            Leasehold Improvement Projects
            Accounts Payable Estimate Methodology Does Not Include a Comparison to
    10-10                                                                                        X
            Actual Amounts
    10-11   FFMS has the Ability to Make Duplicate Payments                                                  ICE-11-01
            Intragovernmental Payment and Collections System (IPAC Payments are Being
    10-12                                                                                        X
            Made Prior to an Obligation Being Set Up in FFMS
    10-13   ICE was Unable to Support UDO Balances in a Timely Manner at Year-End                X
    10-14   FFMIA Compliance                                                                                 ICE-11-14


1
 KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and for the year
ended September 30, 2011, and was not engaged to perform an audit over the statement of net cost, statement of changes in net
position, and statement of budgetary resources for the year ended September 30, 2011. In addition, we were engaged to follow-
up on the status of all active NFRs that supported significant deficiencies reported in our FY 2010 Independent Auditors’ Report.
2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                               10

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      U.S. Immigration and Customs Enforcement

                      Assistant Secretary
                      Chief Financial Officer
                      Chief Information Officer
                      Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
